Case: 20-1712

Document: 8

Page: 1

Date Filed: 08/13/2020

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 20-1712

JOSEPH A. CUNNINGHAM, JR., Trustee;
EL CUNNINGHAM BUTLER BOZEMAN HEIRS FAM TRUST
v.
JP MORGAN CHASE BANK NATIONAL ASSOCIATION,
organized and existing under the laws of the U.S.A.
Joseph A. Cunningham, Jr.,
Appellant

On Appeal from the United States District Court
for the District of Delaware
(D. Del: Civil Action No. 1:18-cv-00596) ^
District Judge: Honorable Leonard P. Stark

Submitted Pursuant to Third Circuit LAR 34.1(a)
— August 11,2020 —
Before: SHWARTZ, RESTREPO and GREENBERG, Circuit Judges
(Opinion filed: August 13, 2020)

OPINION*

* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not
constitute binding precedent.

Case: 20-1712

Document: 8

Page: 2

Date Filed: 08/13/2020

PER CURIAM
Pro se appellant Joseph A. Cunningham, Jr., proceeding in forma pauperis (“IFP”),
appeals from the District Court’s dismissal of his claims after screening his complaint
pursuant to 28 U.S.C. § 1915(e)(2)(B). For the reasons that follow, we will affirm the
District Court’s judgment.
In 2018, Cunningham filed a complaint in the District Court alleging claims
stemming from a foreclosure action. Cunningham’s deceased father had owned the
property at issue, and Cunningham is the executor of his father’s estate. After lengthy
legal proceedings in state court, the property appears to have been sold at a sheriffs sale
in November 2019, but the sale has not yet been confirmed. Cunningham’s vague,
rambling complaint appeared to allege that his rights were violated because documents
were somehow illegally amended during the foreclosure proceedings and because his
father was never served with process “due to his death.” Compl. at p. 6.
After granting Cunningham’s application to proceed IFP, the District Court
screened his complaint and dismissed it. The District Court determined that because
Cunningham had repeatedly and unsuccessfully brought similar claims regarding the
foreclosure action in prior cases before the District Court and this Court, his complaint
should be dismissed pursuant to § 1915(e)(2)(B)(i) as malicious.1 See Cunningham v.

1 The District Court also concluded that abstention was appropriate pursuant to the
Younger abstention doctrine. As discussed further below, because the District Court did
2

Case: 20-1712

Document: 8

Page: 3

Date Filed: 08/13/2020

Mortg. Contracting Servs. LLC, 634 F. App’x 361 (3d Cir. 2016); Cunningham v. JP
Morgan Chase Bank, 537 F. App’x 44 (3d Cir. 2013). The District Court determined that
amendment would be futile. Cunningham timely appealed.2
“A court that considers whether an action is malicious must... engage in a
subjective inquiry into the litigant’s motivations at the time of the filing of the lawsuit to
determine whether the action is an attempt to vex, injure or harass the defendant.”
Deutsch v. United States, 67 F.3d 1080, 1086 (3d Cir. 1995). The District Court did not
err in dismissing Cunningham’s complaint as malicious because Cunningham’s vague
allegations, to the extent that they can be deciphered, essentially duplicate his numerous
prior lawsuits about events that occurred years ago in this same foreclosure action.3 See
Pittman v. Moore, 980 F.2d 994, 995 (5th Cir. 1993). Under these circumstances, the
District Court did not abuse its discretion in concluding that it would be futile to grant
Cunningham leave to amend his complaint. See Grayson v. Mayview State Hosp.. 293
F.3d 103, 108 (3d Cir. 2002).

not err in dismissing Cunningham’s complaint under § 1915(e)(2)(B)(i), we need not
address the District Court’s alternative ground for dismissal.
2 We have jurisdiction over this appeal pursuant to 28 U.S.C. § 1291. In Deutsch v.
United States. 67 F.3d 1080, 1086 (3d Cir. 1995), decided before a major revision of
§ 1915 in 1996, we held that significant deference should be given to a district court’s
order dismissing a complaint as malicious. Even if the statutory revision suggests that we
should review the determination de novo, see McGore v. Wrigglesworth. 114 F.3d 601,
604 (6th Cir. 1997). overruled on other grounds by Jones v. Bock. 549 U.S. 199, 203
(2007), we would still agree with the District Court’s conclusion.
3 Cunningham does not address this issue in his appellate brief.
3

D
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 20-1712
<- V*

- JOSEPH A. CUNNINGHAM, JR., Trustee;*
EL CUNNINGHAM BUTLER BOZEMAN HEIRS FAM TRUST
v.
JP MORGAN CHASE BANK NATIONAL ASSOCIATION,
organized and existing under the laws of the U.S.A.
Joseph A. Cunningham, Jr.,
Appellant
(D. Del. Civil Action No. l:18-cv-00596)

SUR PETITION FOR REHEARING

Present: SMITH, Chief Judge. McKEE, AMBRO, CHAGARES, JORDAN, SHWARTZ,
KRAUSE, RESTREPO, BIBAS, PORTER, MATEY, PHIPPS, and * GREENBERG,
Circuit Judges

The petition for rehearing filed by Appellant in the above-entitled case having
been submitted to the judges who participated in the decision of this Court and to all the
other available circuit judges of the circuit in regular active service, and no judge who
?*-

7*
*

*The Honorable Morton I. Greenberg was a member of the merits panel. Judge
Greenberg died on January 28, 2021 and did not participate in the consideration of this
petition. His vote was limited to panel rehearing.

‘

concurred in the decision having asked for rehearing, and a majority of the judges of the
panel and the Court en banc, is denied.

BY THE COURT,

s/Patty Shwartz
Circuit Judge
Dated:
SLC/cc:

March 26, 2021
Joseph Cunningham

Case 19-4287, Document 72, 06/19/2020, 2866013, Pagel of 1

S.D.N.Y. -N.Y.C.
19-cv-5480
Nathan, J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 29 th day of May, two thousand twenty.
Present:
Rosemary S. Pooler,
Reena Raggi,
Raymond J. Lohier, Jr.,
Circuit Judges.
In re Joseph A. Cunningham, Jr.,
Debtor.
******************************

Joseph A. Cunningham, Jr.,
Debtor-Appellant,
19-4287

v.

Gregory Funding,
Appellee.
Appellee moves to dismiss the appeal as moot. Upon due consideration, it is hereby ORDERED
that the motion to dismiss is GRANTED because the appeal is moot.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

A True Copy
Catherine O'Hagan Wg|

rk

United States Coui rfpf Appeals,> econd Circuit
J SECOND V

cm?

MANDATE IS

e

JU

N 06/19/2020

Case l:18-cv-00596-LPS Document 10 Filed 03/10/20 Page 1 of 8 PagelD #: 124

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
JOSEPH A. CUNNINGHAM, JR., et al.,
Plaintiffs,

Civ. No. 18-596-LPS

v.
JP MORGAN CHASE BANK NATIONAL
ASSOCIATION,
Defendant.

Joseph A. Cunningham, Jr., Bronx, New York, Pro Se Plaintiff.

MEMORANDUM OPINION

March 10, 2020
Wilmington, Delaware

Case l:18-cv-00596-LPS Document 10 Filed 03/10/20 Page 2 of 8 PagelD #: 125

nP
ST.
I.

U.S. District Judge:
INTRODUCTION
PlaintiffJoseph A. Cunningham, Jr. (“Cunningham”) appears pro se and has been granted

leave to proceed informa pauperis. (D.I. 4) Plaintiff El Cunningham Buder, Bozeman Heirs Fam
Trust (the “Trust”) appears without counsel and without paying the filing fee, as ordered by the
Court (See id.) Because an attorney has not entered an appearance on behalf of the Trust, it will be
dismissed from this action. See Cunningham v. JP Mortgage Chase Bank Nat’l Assoc., No. 18-2107 (3d
Cir. Dec. 12,2018). The Court proceeds to review and screen the Complaint pursuant to 28 U.S.C.
§ 1915(e)(2)(b).
II.

BACKGROUND
As he has done before, Cunningham attempts to raise claims related to the foreclosure of

real property located in Newark, Delaware. See Civ. Nos. 13-756-SLR, 15-356-LPS, 17-035-LPS, 181792-LPS. As discussed in Cunningham v. JP Morgan Chase Bank, Civ. No. 13-756-SLR, Cunningham
is the executor of the estate of his father, Joseph Cunningham, Sr. The property at issue was owned
by the decedent. The decedent received a loan from Weichert Financial and the loan was sold or
transferred to Defendant J.P. Morgan Chase Bank National Association (“JP Morgan”).
The Court takes judicial notice that on November 26,2012, JP Morgan filed a scirefacia sur
mortgage complaint against Cunningham and the heirs of his father in the Superior Court of the State
of Delaware in and for New Casde County, CA. No. N12L-11-093 CLS at BL-1 (“CA. No. N12L11-093 CLS”).1 See JP Morgan Chase Bank Nat’lAss’n v. Cunningham, 2018 WL 501500 (Del. Super.
Jan. 19,2018). On June 5, 2018, the Superior Court entered an order and granted JP Morgan’s
motion to substitute parties, retroactive to December 31, 2016, removing JP Morgan as Plaintiff and

i <

“BL” is the designation used by Bloomberg Law for court docket entries.
1

Case l:18-cv-00596-LPS Document 10 Filed 03/10/20 Page 3 of 8 PagelD #: 126

substituting PROF-2013-S3 Legal Title Trust II, by U.S. Bank National Association, as Legal Title
Trustee, as Plaintiff. Id. at BL-139. On January 19,2018, summary judgment was granted in favor
ofJP Morgan. Cunningham, 2018 WL 501500, a^d, 2018 WL 4959040 pel. Oct. 12,2018). The
property was scheduled for a Sheriffs sale on January 8, 2019. C.A. No. N12L-11-093 CLS at BL151. On December 28, 2018, the sale was stayed due to Plaintiffs Bankruptcy Case No. 18-14133.2
Id. On November 12, 2019, the property was sold at Sheriffs Sale and the Sheriffs Return was
docketed on January 14, 2020. Id. at BL-160. To date, the sale has neither been confirmed, nor set
aside.
In the instant Complaint, Plaintiff alleges that his deceased father never received a writ from
the Sheriff, the Court, or the bank’s lawyer “due to the fact that he was deceased.” p.I. 2 at 4-5)
Cunningham alleges that the process from November 26, 2012 to April 2018 “has been a violation
of due process by the hank lawyers,” the judge, and the Prothonotary Clerk’s Office, because
documents were illegally served and illegally amended, because the Superior Court rubber-stamped
the process, and because the mediation process was illegal “due to the illegal service of the writ.”
(Id. at 5-6) For relief, Cunningham seeks one million dollars in damages as well as the right to file a
counterclaim or cross claim in the Superior Court action, the right to rescind his father’s signature,
and the right to recoup process from investments. p.I. 5)
III.

LEGAL STANDARDS
A federal court may properly dismiss an action sua sponte under the screening provisions of

28 U.S.C. § 1915(e)(2)(B) if “the action is frivolous or malicious, fails to state a claim upon which
relief may be granted, or seeks monetary relief from a defendant who is immune from such relief.”

2 Plaintiffs bankruptcy is currendy on appeal in the United States Court of Appeals for the Second
Circuit, In re Cunningham, No. 19-4287 (2d Cir. Dec. 20,2019).

2

Case l:18-cv-00596-LPS Document 10 Filed 03/10/20 Page 4 of 8 PagelD #: 127

Ball v. Famiglio, 726 F.3d 448,452 (3d Cir. 2013); see also 28 U.S.C. § 1915(e)(2) (informapauperis
actions). The Court must accept all factual allegations in a complaint as true and take them in the
light most favorable to a pro se plaintiff. See Phillips v. County ofAllegheny, 515 F.3d 224, 229 (3d Cir.
2008); Erickson v. Pardus, 551 U.S. 89, 93 (2007). Because Plaintiff proceeds pro se, his pleading is
liberally construed and his Complaint, “however inartfully pleaded, must be held to less stringent
standards than formal pleadings drafted by lawyers.” Erickson, 551 U.S. at 94 (citations omitted).
An action is frivolous if it “lacks an arguable basis either in law or in fact.” Neit^ke v.
Williams, 490 U.S. 319,325 (1989). Under 28 U.S.C. § 1915(e)(2)(B)(i), a court may dismiss a
complaint as frivolous if it is “based on an indisputably meritless legal theory” or a “clearly baseless”
or “fantastic or delusional” factual scenario. Neityke, 490 at 327-28; Wilson v. Packmill, 878 F.2d 772,
774 (3d Cir. 1989). A court considering whether an action is malicious must determine whether the
action is an attempt to vex, injure, or harass the defendant See Deutsch v. United States, 67 F.3d 1080,
1086 (3d Cir. 1995). Repetitive litigation is some evidence of a litigant’s motivation to vex or harass
a defendant where it serves no legitimate purpose. See Fiorani v. Hewlett Packard Corp., 547 F. App’x
103,105 (3d Cir. Sept 26, 2013).
The legal standard for dismissing a complaint for failure to state a claim pursuant to
§ 1915(e)(2)(B)(ii) is identical to the legal standard used when ruling on Rule 12(b)(6) motions. See
Tourscherv. McCullough, 184 F.3d 236,240 (3d Cir. 1999) (applying Fed. R. Civ. P. 12(b)(6) standard
to dismissal for failure to state a claim under § 1915(e)(2)(B)). However, before dismissing a
complaint or claims for failure to state a claim upon which relief may be granted pursuant to the
screening provisions of 28 U.S.C. § 1915, the Court must grant Plaintiff leave to amend his
complaint unless amendment would be inequitable or futile. See Grayson v. Mayview State Hosp., 293
F.3d 103,114 (3d Cir. 2002).

3

Case l:18-cv-00596-LPS Document 10 Filed 03/10/20 Page 5 of 8 PagelD #: 128

A complaint may be dismissed only if, accepting the well-pleaded allegations in the
complaint as true and viewing them in the light most favorable to the plaintiff, a court concludes
that those allegations “could not raise a claim of entitlement to relief.” BellAtL Corp. v. Twombly, 550
U.S. 544,558 (2007). Though “detailed factual allegations” are not required, a complaint must do
more than simply provide “labels and conclusions” or “a formulaic recitation of the elements of a
cause of action.” Davis v. Abington Mem'lHosp., 765 F.3d 236,241 (3d Cir. 2014) (quoting Twombly,
550 U.S. at 555). In addition, a complaint must contain sufficient factual matter, accepted as true, to
state a claim to relief that is plausible on its face. See Williams v. BASF Catalysts LUZ, 765 F.3d 306,
315 (3d Cir. 2014) (citing Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) and Twombly, 550 U.S. at 570).
To determine whether a complaint meets the pleading standard as set forth in Twombly and
Iqbal, the Court must: (1) outline the elements a plaintiff must plead to a state a claim for relief; (2)
peel away those allegations that are no more than conclusions and thus not entitled to the
assumption of truth; and (3) look for well-pled factual allegations, assume their veracity, and then
“determine whether they plausibly give rise to an entitlement to relief.” Bistrian v. Levi, 696 F.3d 352,
365 (3d Cir. 2012) (internal citations omitted) (citing Iqbal, 556 U.S. at 679; Argueta v. United States
Immigration and Customs Enforcement, 643 F.3d 60,73 (3d Cir. 2011)). The last step is “a contextspecific task that requires the reviewing court to draw on its judicial experience and common sense.”
Iqbal, 556 U.S. at 679.
IV.

DISCUSSION
A.

Malicious

A court considering whether an action is malicious must determine whether the action is an
attempt to vex, injure, or harass the defendant. See Deutsch, 67 F.3d at 1086. Repetitive litigation is
some evidence of a litigant’s motivation to vex or harass a defendant where it serves no legitimate
4

Case l:18-cv-00596-LPS Document 10 Filed 03/10/20 Page 6 of 8 PagelD #: 129

purpose. See Fiorani, 547 F. App’x at 105; Kennedy v. Get^ 757 F. App’x 205,207-08 (3d Cir. Dec. 19,
2018) (Plaintiff offered no argument on appeal challenging District Court’s determination that his
motivation in filing third lawsuit was to vex, injure, or harass defendants). “Repetitious litigation of
virtually identical causes of action may be dismissed under § 1915 as frivolous or malicious.”
McWilliams v. Colorado, 121 F.3d 573,574 (10th Cir. 1997) (internal quotation marks and alteration
omitted); see also Rosier v. United States, 736 F. App’x 313, 315 (3d Cir. June 7,2018) (District Court
did not err in dismissing case as malicious as circumstances support finding that when Plaintiff
initiated complaint his intent was to harass government); Daley v. U.S. Attorneys Office, 538 F. App’x
142,144 (3d Cir. Oct. 31,2013) (Plaintiffs complaint is malicious as it repeats claims that Plaintiff
unsuccessfully previously litigated twice before in District Court); Pittman v. Moore, 980 F.2d 994, 995
(5th Cir. 1993) (complaint is malicious when it “duplicates allegations of another [ ] federal lawsuit
by the same plaintiff); Bailey v. Johnson, 846 F.2d 1019 (5th Cir. 1988) (an informa pattperis complaint
that merely repeats pending or previously litigated claims may be considered abusive and dismissed
under authority of § 1915); McGill v. Juanita Kraft Postal Sen\, 2003 WL 21355439, at *2 (N.D. Tx.
June 6, 2003) (complaint is malicious when it ‘“duplicates allegations of another pending federal
lawsuit by the same plaintiff or when it raises claims arising out of a common nucleus of operative
facts that could have been brought in the prior litigation”).
The instant Complaint contains claims that arise out of a common nucleus operative facts
and are related to Cunningham v. JP Morgan Chase Bank, Civ. No. 13-756-SLR, wherein Plaintiff raised
claims related to the foreclosure of the real property described above. On July 2,2013, this Court
dismissed Civ. No. 13-756-SLR as frivolous and by reason of abstention. {See Civ. No. 13-756-SLR
at D.I. 14) Plaintiff appealed, and the United States Court of Appeals for the Third Circuit affirmed,

5

Case l:18-cv-00596-LPS Document 10 Filed 03/10/20 Page 7 of 8 PagelD #: 130

agreeing that Younger abstention was appropriate in Plaintiff’s case. See Cunningham v. JP Morgan Chase
Bank, 537 F. App’x 44 (3d Cir. Oct. 21,2013).
The instant Complaint also contains claims that arise out of a common nucleus of operative
facts and are related to Cunningham v. Mortgage Contracting Services, Civ. No. 15-356-LPS, wherein
Plaintiff raised claims related to the foreclosure of the real property described above. This Court
dismissed Civ. No. 15-356-LPS as malicious and by reason of abstention on July 30,2015. {See Civ.
No. 15-356-LPS at D.I. 6) Plaintiff appealed, and the United States Court of Appeals for the Third
Circuit affirmed, agreeing that Younger abstention was appropriate in Plaintiffs case. See Cunningham
v. Mortgage Contracting Services, 634 F. App’x 361 (3d Cir. Feb. 22,2016).
The filing of this Complaint falls squarely in the category of malicious litigation. Based
upon the foregoing, the Court concludes that Plaintiffs complaint is malicious within the meaning
of Section 1915(e)(2)(B).
B.

Younger Abstention

In Civ. No. 13-756-SLR, Defendant indicated that, on November 26,2012, it initiated a
foreclosure action for the real property in question in the Superior Court of the State of Delaware,
JP Morgan Chase Bank, NationalAssociation v. Cunningham, C.A. No. N12L-11-093 JRJ. {See Civ. No.
13-756-SLR D.I. 9 at Wiggins aff. ^ 10; Ex. H) Plaintiff is participating in the action on behalf of his
father’s estate. {Id. at ^ 11; Ex. I) The Court takes judicial notice that the Superior Court action
remains pending. While there has been a Sheriffs sale, there is no indication on the Superior Court
docket that the Superior Court has confirmed the sale. See 10 Del. C. §§ 4976,5065; Superior Court
Civil Rule 69(d).
Inasmuch as the foreclosure action remains pending, the Court must abstain pursuant to the
Younger abstention doctrine. See Younger v. Harris, 401 U.S. 37 (1971) (federal district court must
6

Case l:18-cv-00596-LPS Document 10 Filed 03/10/20 Page 8 of 8 PagelD #: 131

abstain from heating a federal case which interferes with certain state proceedings). Abstendon is
appropriate when: (1) there are ongoing state proceedings that are judicial in nature; (2) the state
proceedings implicate important state interests; and (3) the state proceedings provide an adequate
opportunity to raise the federal claims. See La^aridis v. Wehmer; 591 F.3d 666,670 (3d Cir. 2010).
The doctrine applies to proceedings until all appellate remedies have been exhausted, unless the
matter falls within one of the Younger exceptions. See Huffman v. Pursue Lid., 420 U.S. 592, 608
(1975).
Once again, the Court finds that the Younger elements have been met and none of its
exceptions apply. There are ongoing state proceedings for the foreclosure of real property. See
Cunningham v. JP Morgan Chase Bank, 537 F. App’x at 45. Delaware has an important interest in
resolving real estate issues, which implicates the important interest of preserving the authority of the
state’s judicial system. Id Plaintiff has an adequate opportunity to raise any potential claims in State
court. Further, Plaintiff “has not demonstrated “bad, faith, harassment or some other extraordinary
circumstance, which might make abstention inappropriate.”’ Id. (quoting Anthony v. Council, 316 F.3d
412, 418 (3d Cir. 2003)). Therefore, pursuant to Younger and its progeny, the Court must abstain.
See Pennyoil Co. v. Texaco, Inc., 481 U.S. 1,15 (1987) (stating that Younger abstention is favored even
after plaintiffs failed to raise their federal claims in ongoing state proceedings).
V.

CONCLUSION
For the above reasons, the Court will: (1) dismiss El Cunningham Butler, Bozeman Heirs

Fam Trust as a Plaintiff; and (2) dismiss the Complaint as malicious pursuant to 28 U.S.C. §
1915(e)(2)(B)(i) and by reason of abstention. The Court finds amendment futile.
An appropriate order will be entered.

7

IS

Afa^diV

18-141E&s§rt:ig3^-(ffiW8(FitelN09/29/06cuET®tBtei 095wmmiZgJ2D9{35a^telprff>^i imp
-

Pg 1 of 2

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK

US0C SDNY
DOCUMENT
ELECTRONICALLY PILED
DOC #:_______
.
DATE FILED; 9/27/20

Joseph Allan Cunningham
Debtor,

19-cv-5480 (AJN) (SN)
Joseph Allan Cunningham,
Appellant,
-v-

OPINION & ORDER

Gregory Funding,
Appellee.

ALISON J. NATHAN, District Judge:
Before the Court is Judge Netbum’s Report & Recommendation (R&R) recommending
that the Court grant the Defendant’s motion to dismiss this bankruptcy appeal. See Dkt. No. 26.
When considering the findings and recommendations of a Magistrate Judge, the Court
may “accept, reject, or modify [them], in whole or in part.” 28 U.S.C. § 636(b)(1). The Court
must make a de novo determination of any portions of a magistrate’s report or findings to which
a party raises an objection, and reviews only for “clear error on the face of the record” when
there are no objections to the R&R. Brennan v. Colvin, No. 13-cv-6338 (AJN), 2015 WL
1402204, at *1 (S.D.N.Y. Mar. 25, 2015); see also Hicks v. Ercole, No. 09-cv-2531 (AJN)
(MHD), 2015 WL 1266800, at *1 (S.D.N.Y. Mar. 18, 2015); Gomez v. Brown, 655 F.Supp.2d
332, 341 (S.D.N.Y. 2009). Clear error is found only when, upon review of the entire record, the

1

18-141S^fi^r±i:l£Etcu>CBffi48(FitelM03/29/DOcuBTffitetecl 097IE
Pg 2 of 2

32J712D3SPapa&id5flcument

Court is left with “the definite and firm conviction that a mistake has been committed.” Laster v.
Mancini, No. 07-cv-8265 (DAB) (MHD), 2013 WL 5405468, at *2 (S.D.N.Y. Sept. 25, 2013)
(quoting United States v. Snow, 462 F.3d 55, 72 (2d Cir. 2006)).
Objections to Judge Netbum’s R & R were due by December 24, 2019. See Dkt. No. 26
at 6. As of September 27, 2020, no objections have been filed. The Court thus reviews the R&R
for clear error, and finds none. The Court therefore adopts the R&R in its entirety and GRANTS
Appellee’s motion to dismiss this appeal for the reasons provided in Judge Netbum’s wellreaSoned and thorough Report and Recommendation.
The Clerk of Court is respectfully ordered to close this case and enter judgment. The
Clerk of Court is further directed to mail a copy of this Opinion to the pro se Appellant and to
note that mailing on the public docket.

SO ORDERED.
Dated: September 27, 2020
New York, New York
ALISON J. NATHAN
United States District Judge

2

18-14133-cgm
*

Doc 33

Filed 07/01/19 Entered 07/01/19 16:44:14
Pg 1 of 1

Main Document

UNITED STATES BANKRUPTCY COURT
SOUTHERN DISTRICT OF NEW YORK
In re:
JOSEPH ALLAN CUNNINGHAM, JR.,

Chapter 13
Case No. 18-141_33 (CGM)

\/

Debtor.
X

ORDER DENYING MOTION FOR STAY PENDING APPEAL
WHEREAS, Debtor filed a motion on June 13, 2019 requesting a stay pending appeal
of the Court’s Order Granting the Chapter 13 Trustee’s Motion to Dismiss Case for Failure to
Make Plan Payments [ECF No. 25];
WHEREAS, Debtor failed to file a memorandum of law with the instant motion;

AND NOW, THEREFORE, IT IS HEREBY,
ORDERED, that Debtor’s motion for stay pending appeal is denied.

/si Cecelia G. Morris
Dated: July 1, 2019
Poughkeepsie, New York

Hon. Cecelia G. Morris
Chief U.S. Bankruptcy Judge

18-14133-cgm

Doc 39 Filed 10/21/20 Entered 10/21/20 10:31:11
Discharging Trustee Pg 1 of 1

Order

UNITED STATES BANKRUPTCY COURT
SOUTHERN DISTRICT OF NEW YORK
One Bowling Green
New York, NY 10004-1408

IN RE: Joseph Allan Cunningham, Jr.

CASE NO.: 18-14133-cgm

Social Security/Taxpayer ID/Employer ID/Other Nos.:
xxx-xx-3027

CHAPTER: 13

ORDER DISCHARGING TRUSTEE

The petition of the above named debtor has been dismissed and the chapter 13 trustee has submitted the final report.
IT IS ORDERED THAT:
Krista M. Preuss is discharged as trustee of the estate of the above named debtor(s) and this chapter 13 case is closed.

Dated: October 21, 2020

Cecelia G. Morris, Bankruptcy Judge

A PPSKD iX

EFiled: Jan 25 2018 03:23P #
Filing ID 61611732
Case Number 49,2018
1

IN THE SUPERIOR COURT OF THE STATE OF DELAWARE
JPMorgan Chase Bank, National
Association, a national banking
association organized and existing
under the laws of the United States of
America; Assignee of Mortgage
Electronic Registrations Systems, Inc.,
as a nominee, a corporation organized
and existing under the laws of the State
of Delaware

)
)
)
)
)
)
)
)

C-A. No. N12L-11-093 CLS

)
)
)
)
)
)

Plaintiff,
v.
JOSEPH A. CUNNINGHAM, Jr.
Personal Representative and Heir,
HOWARD S. CUNNINGHAM, Heir,
PAULETTE CUNNINGHAM, Heir,
and YASMEEN CUNNINGHAM,
Heir,

)
)
)
)
)
)

Defendants.
ORDER
Decided: January 19,2018
On this 19th day of January, 2018, and upon consideration Plaintiff JPMorgan
Chase Bank’s (“Plaintiff’) Motion for Summary Judgment and Defendant Joseph
Cunningham’s (“Defendant”) Response thereto, the Court finds as follows:

1. On November 26, 2012 Plaintiff filed a scire facias sur mortgage complaint
against Defendants seeking foreclosure of Plaintiffs interests in 247
Auckland Drive, Newark DE 19702 under the mortgage.
2. Defendant elected to participate in mediation, but he did not appear at the
mediation conference on April 17, 2013. Plaintiffs Motion to Dismiss
Defendant’s counterclaims was granted on June 9, 2014. Plaintiff filed a
Motion to Amend the Complaint on September 6, 2016. The Court granted
Plaintiffs Motion. Plaintiff filed its Amended Complaint on Januaiy 17,
2017. Subsequently Plaintiff filed this Motion for Summary Judgment.
Plaintiff contends that Defendants have not plead any of the allowable
Defenses in a mortgage action under Delaware law.
3. Defendant Joseph Cunningham filed a Response on August 24, 2017 and a
document filed as “Notice from Defendant”’ on October 11,2017.
4. “The defenses available in a scire facias sur mortgage foreclosure action are
limited and only those claims or counterclaims arising under the mortgage
may be raised. Delaware courts recognize the defenses of payment,
satisfaction or avoidance.”1

1 CitiMortgage, Inc. v. Bishop, 2013 WL 1143670, at *5 (Del. Super. Mar. 4,
2013).
2

f

5. The Court may grant summary judgment if the moving party establishes that
there are no genuine issues of material fact in dispute and judgment may be
granted as a matter of law.2 All facts are viewed in a light most favorable to
the non-moving party.3 When the facts permit a reasonable person to draw
only one inference, the question becomes one for decision as a matter of law.4
If the non-moving party bears the burden of proof at trial, yet “fails to make a
showing sufficient to establish the existence of an element essential to that
party’s case,” then summary judgment may be granted against that party.5
6. To the extent that Defendants raised any defense in their filings, this Court
may only recognize the defense of payment, satisfaction or avoidance. The
Answer to Plaintiffs Complaint is void of Delaware’s recognized defenses.
Additionally, the Response to Plaintiffs Motion, and subsequent filing, fails
to demonstrate that there are any genuine issues of material fact.
7. For the foregoing reasons, Plaintiff JPMorgan Bank’s Motion for Summary
Judgment is GRANTED as to all Defendants. IT IS SO ORDERED.
/s/ Calvin L. Scott
Judge Calvin L. Scott, Jr.

2 Super. Ct. Civ. R. 56(c).
3 Moore v. Sizemore, 405 A.2d 679,680 (Del. 1979).
4 Wootten v. Kiger, 226 A.2d 238,239 (Del. 1967).
5Kennedy v. Encompass Indem. Co., 2012 WL4754162, at *2 (Del. Super. Sept. 28,
2012) (quoting Celotex Corp. v. Catrett, All U.S. 317,322 (1986)).
3

/\ Pp<2n D t>

EFiled: Oct 12 2018 11:19A
Filing ID 62553921
Case Number 49,2018

IN THE SUPREME COURT OF THE STATE OF DELAWARE
JOSEPH A. CUNNINGHAM, JR.,
Personal Representative and Heir,

§

§ No. 49,2018
§

Defendant Below,
Appellant,

§ Court Below—Superior Court
§ of the State of Delaware

v.

§
§

§ C.A. No. N12L-11-093
PROF-2013-S3 LEGAL TITLE
TRUST II, by U.S. BANK
NATIONAL ASSOCIATION, as
Legal Title Trustee,
Plaintiff Below,
Appellee.

§
§
§
§
§
§
§

Submitted: August 10,2018
Decided: October 12, 2018
Before STRINE, Chief Justice; VALIHURA and VAUGHN, Justices.
ORDER
After careful consideration of the parties’ briefs and the record on appeal, we
conclude that the judgment below should be affirmed on the basis of the Superior
Court order, dated January 19, 2018, granting summary judgment. The defendant
below-appellant failed to assert any of the defenses available in a scire facias sur
mortgage action and failed to raise any genuine issue of material fact.

NOW, THEREFORE, IT IS ORDERED that the judgment of the Superior
Court is AFFIRMED.
BY THE COURT:
/s/Karen L. Valihura
Justice

2

App^oM^ q
OFFICE OF THE CLERK

PATRICIA S. DODSZUWEIT

United States Court of Appeals

CLERK

FOR THE THIRD CIRCUIT
21400 UNITED STATES COURTHOUSE
601 MARKET STREET
PHILADELPHIA, PA 19106-1790

TELEPHONE

215-597-2995

Website: vvww,ca3.nscourts.gov

March 30, 2021
Joseph A. Cunningham, Jr.
Apartment IB
3038 Matthews Avenue
Bronx, NY 10467
Re: Cunningham v. JP Morgan Chase Bank NA
No.: 20-1712
Dear Mr. Cunningham,
This will serve as response to your submission received on March 30, 2021.
With the issuance of this Court’s mandate, the Court’s decision became final and
the Court lost any authority to alter or change its decision. It is noted that your petition
for rehearing was denied on March 26, 2021. Any further review must be sought in the
United States Supreme Court. The address for the Supreme Court is:
Office of the Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543-0001
Very truly yours,
s/ Patricia S. Dodszuweit
Clerk
By: s/ Shannon, Case Manager
267-299-4959

Additional material
from this filing is
available in the
Clerk's Office.

